No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH A. DIXON - PETITIONER
vs.
MARK S. INCH, FLORIDA DEPT. OF CORRECTIONS, and
ATTORNEY GENERAL, STATE OF FLORIDA - RESPONDENT(S)

PROOF OF SERVICE
I, Joseph A. Dixon, do swear or declare that on this date, July 2021, as
required by Supreme Court Rule 29,1 have served the enclosed Petition for Writ of
Certiorari on each party to the above proceeding or that party’s counsel, and every
other person required to be served, by placing the documents in the hands of a
prison official for mailing out First Class Mail postage — prepaid to:
Office of the Attorney General
3507 East Frontage Road
Tampa, Florida, 33607

Mark S. Inch, Secretary
Florida Department of Corrections
501 S. Calhoun Street
Tallahassee, Florida, 32399-2500

I declare under the penalty of perjury that the foregoing is true and correct.

August 12. 2021
Date

Joseph A Dixon
Marion Correctional Institution
P.O. Box 158
Lowell, Florida, 32663 - 0158

